TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Improvements Are Needed to Ensure
                     Successful Development and System
                  Integration for the Return Review Program



                                           July 26, 2013

                              Reference Number: 2013-20-063




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


IMPROVEMENTS ARE NEEDED TO                             integrated successfully. However, RRP
ENSURE SUCCESSFUL DEVELOPMENT                          Prototype Management Plans, critical systems
AND SYSTEM INTEGRATION FOR THE                         development products, were not completed or
RETURN REVIEW PROGRAM                                  approved by major stakeholders before
                                                       significant resources were committed.
                                                       Uncertainty about the systems development
Highlights                                             path for the RRP and the absence of Enterprise
                                                       Life Cycle guidance for prototypes hindered
                                                       initial systems development efforts. Further,
Final Report issued on July 26, 2013                   alternative commercial software products were
                                                       not fully considered prior to selecting technology
Highlights of Reference Number: 2013-20-063            solutions for the RRP system.
to the Internal Revenue Service Chief
Technology Officer.                                    WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS                                    TIGTA recommended that the Chief Technology
                                                       Officer: 1) establish appropriate program-level
Based on the fraud it currently detects, the IRS       governance with enterprisewide authority for the
estimates that tax refund fraud is more than           RRP; 2) clearly document the RRP systems
$19.2 billion per fiscal year. The IRS is              integrator roles and responsibilities; 3) complete
developing a new Return Review Program                 the RRP Prototype Management Plans, clarify
(RRP) system to implement the IRS’s new                how to measure prototype success, map
business model for a coordinated criminal and          prototype activities to requirements, incorporate
civil tax noncompliance system. Once                   lessons learned, and obtain approval from
developed and implemented, the new system              governance bodies; 4) document, for approval
will significantly enhance the IRS’s capabilities      by RRP governance bodies, the decided
to prevent, detect, and resolve tax refund fraud,      systems development path; 5) establish
including identity theft.                              sufficient Enterprise Life Cycle guidance for
WHY TIGTA DID THE AUDIT                                prototypes; and 6) take appropriate steps to
                                                       ensure that change requests include alternative
The IRS’s current system to detect fraud is the        analyses and impact assessments and also
Electronic Fraud Detection System (EFDS). The          establish and implement Enterprise Architecture
IRS determined that the EFDS, which was                guidelines for evaluating later versions of tested
implemented in 1994, is outdated and would be          commercial products.
inefficient to maintain, upgrade, or operate
beyond Calendar Year 2015. Successful                  In its response, the IRS agreed with our
implementation of the new RRP system would             recommendations and reports that it has
increase the dollar amount of fraudulent tax           implemented two corrective actions. The IRS
refunds identified annually. TIGTA’s overall           established two new enterprisewide governance
audit objective was to determine whether the           entities to oversee the RRP, and it updated its
IRS’s Information Technology Applications              RRP Prototype Management Plans and
Development organization was adequately                individual RRP Prototype Reports for
managing RRP Transition State 1 systems                performance measures criteria and relevant
development risks to achieve stated business           functional and performance requirements. In
and information technology requirements.               addition, the IRS plans to document system
                                                       integrator roles and responsibilities in the RRP
WHAT TIGTA FOUND                                       Project Management Plan and to document the
                                                       approved RRP systems development path. The
Roles for program-level governance were not            IRS also plans to update the Internal Revenue
yet established for the RRP and the key role of        Manual with prototype guidance and to develop
system integrator was not documented or clearly        a process for analyzing and processing
communicated. From January to December                 Enterprise Architecture Change Requests in a
2012, prototype activities were conducted to           standard, repeatable process.
validate that technology product solutions
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 26, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvements Are Needed to Ensure Successful
                             Development and System Integration for the Return Review Program
                             (Audit # 201220011)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) efforts on
 developing the new system for replacing the fraud detection system. The overall objective of
 this review was to determine whether the IRS is effectively and efficiently implementing its
 continuous monitoring tool to monitor security settings on employee workstations and laptop
 computers. This audit is included in the Treasury Inspector General for Tax Administration’s
 Fiscal Year 2013 Annual Audit Plan and addresses the major management challenge of
 Modernization.
 Management’s written response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Alan R. Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services).
                       Improvements Are Needed to Ensure Successful Development
                          and System Integration for the Return Review Program




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Roles for Program-Level Governance Were Not Yet
          Established and Clarification Is Needed for the Key Role
          of System Integrator ...................................................................................... Page 4
                    Recommendation 1:........................................................ Page 5

                    Recommendation 2:........................................................ Page 6

          Return Review Program Prototype Management Plans
          Were Not Completed or Approved by Major Stakeholders.......................... Page 6
                    Recommendation 3:........................................................ Page 9

          Uncertainty About the Systems Development Path for
          the Return Review Program and the Absence of
          Enterprise Life Cycle Guidance for Prototypes Hindered
          Initial Systems Development Efforts ............................................................ Page 10
                    Recommendations 4 and 5: .............................................. Page 12

          Alternative Commercial Software Products Were Not Fully
          Considered Prior to Selecting Technology Product
          Solutions for the Return Review Program .................................................... Page 12
                    Recommendation 6:........................................................ Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Timeline – Return Review Program Project Events ............ Page 20
          Appendix V – Glossary of Terms ................................................................. Page 21
          Appendix VI – Management’s Response to the Draft Report ...................... Page 23
       Improvements Are Needed to Ensure Successful Development
          and System Integration for the Return Review Program




                      Abbreviations

CTO            Chief Technology Officer
EFDS           Electronic Fraud Detection System
ELC            Enterprise Life Cycle
IBM            International Business Machines
IRS            Internal Revenue Service
IT             Information Technology
RRP            Return Review Program
SAS            Statistical Analysis System
TS             Transition State
                      Improvements Are Needed to Ensure Successful Development
                         and System Integration for the Return Review Program




                                              Background

The Internal Revenue Service’s (IRS) current fraud detection system is the Electronic Fraud
Detection System (EFDS).1 The IRS has determined that numerous inefficiencies and
operational challenges render the EFDS, implemented in Calendar Year 1994, too risky to
maintain, upgrade, or operate beyond Calendar Year 2015. The IRS reports that the long-term
limitations of the EFDS include its inability to keep pace with increasing levels of fraud or to
serve the organization’s evolving compliance needs.
In February 2009, the IRS Commissioner approved a
program charter authorizing the formation of the Return        The RRP system will implement
Review Program (RRP) under joint leadership provided            the IRS’s new business model
by the Wage and Investment Division and Criminal                for a coordinated criminal and
Investigation. The Wage and Investment Division is            civil tax noncompliance approach
responsible for RRP requirements development, risk              to  prevent, detect, and resolve
                                                                tax refund fraud, estimated by
management, governance, project management, and                      the IRS to be more than
deployment support. Criminal Investigation is                     $19.2 billion per fiscal year.
responsible for supporting the RRP by identifying and
developing schemes to refer and support high-impact
criminal tax and related financial investigations. In September 2010, the Applications
Development organization awarded a cost-plus-incentive-fee contract to International Business
Machines (IBM) for leading RRP prototyping activities.
A successful RRP system is critical to the IRS mission. It will be the key automated component
of the IRS’s prerefund initiative. The RRP system will implement the IRS’s new business model
for a coordinated criminal and civil tax noncompliance approach to prevent, detect, and resolve
tax refund fraud. Based on fraud detected by the EFDS and supplemented by manual detection
methods, the IRS estimates that tax refund fraud is more than $19.2 billion per fiscal year.
Successful implementation of the new RRP system would increase the dollar amount of
fraudulent tax refunds identified annually. Figure 1 shows that the RRP system will use new
data analytics techniques to determine and identify possible noncompliance and fraud.




1
    See Appendix V for a glossary of terms.
                                                                                            Page 1
                   Improvements Are Needed to Ensure Successful Development
                      and System Integration for the Return Review Program



                                  Figure 1: RRP Solution Concept




    Source: IRS-developed document “RRP Technical Overview,” dated September 14, 2011.

In August 2011, the Wage and Investment Division and the Applications Development
organization redirected RRP systems development efforts to include new technology product
solutions and to incorporate Patient Protection and Affordable Care Act (Affordable Care Act)2
functionality into the planned scope for the system. Benefits of the RRP system include:
       Reducing the fraudulent refund claims paid by the IRS.
       Establishing capabilities to coordinate detection and resolution of criminal and civil
        noncompliance issues.


2
 Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered section of the U.S. Code), as amended
by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                          Page 2
                 Improvements Are Needed to Ensure Successful Development
                    and System Integration for the Return Review Program



      Preventing criminal and civil noncompliance issues.
      Promoting increased taxpayer compliance through targeted educational information and
       deterrent activities.
      Creating more effective and innovative resolutions through research and analysis of both
       real-time trends and long-term studies.
      Handling mandatory legislation changes and significant programs (e.g., Affordable Care
       Act, Customer Account Data Engine 2), new tax credits, and ongoing prerefund and other
       noncompliance initiatives such as prisoner, identity theft, frivolous filer, tax return
       redesign (such as Form 1040, U.S. Individual Income Tax Return), and decedent
       schemes.
This review was performed at the IRS Information Technology (IT) organization’s facilities in
New Carrollton, Maryland, during the period May through October 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 3
                 Improvements Are Needed to Ensure Successful Development
                    and System Integration for the Return Review Program




                                Results of Review

Roles for Program-Level Governance Were Not Yet Established and
Clarification Is Needed for the Key Role of System Integrator
In February 2008, the IRS established the Criminal Investigation Executive Steering Committee
as the governance body to oversee Criminal Investigation systems development projects. The
Criminal Investigation Executive Steering Committee held monthly governance meetings to
discuss RRP topics, approve decisions affecting the RRP, and ensure that the RRP system
satisfied milestone exit requirements. However, the Criminal Investigation Executive Steering
Committee does not have the authority to govern enterprisewide and program-level activities
pertaining to tax fraud detection, resolution, and prevention, which directly affect RRP systems
development. More specifically, it does not have the authority to ensure that fraud programs stay
aligned with the IRS Strategic Plan, resolve enterprisewide issues for fraud programs and
projects, and ensure that RRP objectives are met.
During our audit, the IRS took initial steps, including drafting a proposal, to establish a new
executive governance body to oversee both RRP and EFDS fraud initiatives. IRS management
recognizes that a change in governance is needed to provide more accountability and assurance
of success for systems development of the RRP system. However, the necessary governance
charter and plan were still undergoing review across IRS business units at the time of our review.
We recognize that the IRS has taken appropriate management action by reconsidering the initial
governance structures established for the RRP. However, during our review, roles for
program-level governance, including an RRP Program Management Office, were not
established, and it was not clear how the IRS will govern the systems development process for
this mission-critical system, resolve enterprisewide issues for fraud projects and programs, and
resolve escalated disputes and issues from fraud projects and programs. Suitable responsibilities
for this program-level governance body include:
      Establishing organizational commitments that enable fraud-related programs and projects
       to achieve their program goals.
      Promoting efficient and effective communication and coordination among all
       fraud-related programs and projects.
      Managing decisions across fraud-related programs and projects.
      Facilitating decisionmaking, governance, and systems development processes across the
       RRP.

                                                                                           Page 4
                 Improvements Are Needed to Ensure Successful Development
                    and System Integration for the Return Review Program



      Implementing program-level management plans and systems development processes
       across the RRP.
Further, roles and responsibilities for integrating the various components of the RRP system
during its initial development activities were not well established or clearly communicated as
needed. A systems integrator is a person or company that specializes in bringing together
component subsystems into a whole and ensuring that those subsystems function together as
intended. Systems integrator roles and responsibilities often involve managing scope, schedule,
staffing, risks, configuration management, testing, procurement, performance, reporting, and
release management. The IRS officials we met with indicated that the Applications
Development organization was the systems integrator for the RRP system. However, neither the
September 2012 Project Management Plan for RRP Transition States (TS) 1 through 4 nor the
June 2011 RRP TS1 Tailoring Plan stipulated organizational roles and responsibilities for
integrating the various component subsystems that must work together for a successful RRP
system.
Further, the IRS September 2010 contract with IBM does not specify or delineate key systems
integrator roles and responsibilities. The contract simply states, “The contractor shall lead the
development efforts and coordinate the stand-up of the physical components of the RRP
environment.” As a result, specific systems integrator roles and responsibilities for the
development of this mission-critical system have not been clearly established. Without clearly
defined systems integrator roles and responsibilities, there is limited assurance that they will be
understood, performed, successfully completed, or appropriately monitored. Accordingly, there
is limited assurance that RRP systems development activities will achieve expected benefits or
meet time-sensitive business and information technology requirements for addressing the IRS’s
evolving tax refund fraud risks.

Recommendations
Recommendation 1: The Chief Technology Officer (CTO) should establish appropriate
program-level governance with enterprisewide authority for meeting RRP objectives, managing
program risks, and ensuring that the expenditure of enterprise resources is fiscally sound.
       Management’s Response: The IRS agreed with this recommendation. The RRP
       was originally governed by the Criminal Investigation Executive Steering Committee.
       To provide enterprisewide governance of revenue protection initiatives, the Revenue
       Protection Technology Governance Board and Executive Steering Committee are two
       new governance entities that were established and approved by the Information
       Technology Enterprise Governance Committee on November 29, 2012.




                                                                                             Page 5
                Improvements Are Needed to Ensure Successful Development
                   and System Integration for the Return Review Program



Recommendation 2: The CTO should clearly document and communicate RRP systems
integrator roles and responsibilities.
       Management’s Response: The IRS agreed with this recommendation. The system
       integrator roles and responsibilities will be documented in the Project Management Plan.

Return Review Program Prototype Management Plans Were Not
Completed or Approved by Major Stakeholders
The IRS plans to deliver the RRP system incrementally through four TSs as indicated below.
      RRP TS1 involves prototyping the successful end-to-end integration of the RRP
       technology product solutions. Prototyping will provide confidence that the RRP TS1
       architecture, preliminary design, and new technology products will meet the RRP TS1
       functional and performance requirements. The RRP TS1 system will deliver the offline
       prevention environment, the integrated data warehouse, the initial data load (three years
       of history), an ongoing data integration capability, and the ability for business users to
       perform ad hoc manual queries to identify potential schemes. The scheduled release date
       for RRP TS1 is January 2014.
      RRP TS2 involves delivering the full RRP system capability for individual taxpayer
       returns, including offline prevention, inline detection, and systemic verification of
       third-party data, the integrated data warehouse, and the user interface using the Employee
       User Portal. The RRP system will replace the current EFDS. RRP TS2 will also
       incorporate the functionality of the Affordable Care Act that becomes effective in
       Calendar Year 2014. The IRS plans for the RRP to be available to process Processing
       Year 2014 Affordable Care Act tax returns filed January 2015. The scheduled release
       date for RRP TS2 is January 2015.
      RRP TS3 involves delivering the full RRP system capability for processing Business
       Master File returns. The IRS has not yet determined the scheduled release date for
       RRP TS3.
      RRP TS4 will enhance existing functionality and provide additional interfaces to internal
       and external stakeholders. The IRS has not yet determined the scheduled release date for
       RRP TS4.
In June 2009, the Wage and Investment Division submitted the initial budget request for the RRP
through the Exhibit 300 budget submission process. Exhibit 300 depicts a required business case
for a proposed investment, including expected benefits, costs, and risks for the budget proposal.
In May 2012, the Wage and Investment Division and the Applications Development organization
submitted a baseline change request to incorporate new technology products, add the Affordable
Care Act requirements into the new system’s scope, and reflect these changes in the RRP’s cost,
schedule, and performance goals. In September 2012, the Department of the Treasury approved
                                                                                          Page 6
                       Improvements Are Needed to Ensure Successful Development
                          and System Integration for the Return Review Program



the RRP’s revised funding request for $147 million, which included a total of $89 million for
TS1 prototyping activities and hardware and software for the RRP solution.
In September 2010, the Applications Development organization awarded a cost-plus-
incentive-fee contract to IBM for leading prototyping activities for RRP TS1. According to the
contract, “the contractor’s primary tasks will include: developing the milestone
deliverables/work products, providing technical leadership for predictive analytics, business
rules, architecture development, physical design, prototype architecture, and subject matter
experts during the detailed design phase for the RRP TS1 system.” As part of the RRP systems
development process, IRS prototyping activities were scheduled to occur during the period
January to December 2012. The purpose of the prototyping activities is to successfully integrate
the technology product solutions selected for the RRP, assess their performance, and provide
confidence that the RRP TS1 architecture and preliminary design will meet the RRP TS1
functional and performance requirements. The Applications Development organization had
established prototype teams and responsibilities for the data, analytics, business rules, Java,
reports, and infrastructure teams.
During our review, the prototype projects were in various stages of completion, and prototype
project results were not yet available for our review. Figure 2 describes the prototypes included
in RRP TS1 systems development efforts and identifies the prototype tasks, the products to be
prototyped and integrated, and a description of each prototype.
                              Figure 2: Description of RRP TS1 Prototypes

         Prototyping Task                Products                                Task Description

    1.   Implement the Physical     Greenplum              Convert the logical data model to the physical data model.
         Data Model for the RRP                            Resolve performance issues in the logical data model. Create
         Database                                          the physical RRP database.
    2.   Develop Predictive         Statistical Analysis   Start developing predictive models for income and
         Models                     System (SAS)           withholding, identity theft, and frivolous filer anomaly areas.
    3.   Integrate Enterprise       Informatica            Extract and transform data from other IRS data sources and
         Informatica Platform                              load data into the RRP database. Explore design issues
                                    Greenplum
         With the RRP Database3                            regarding data transfer over wide-area network between IRS
                                                           Enterprise Computing Centers.
    4.   Integrate Tools to Track   ClearCase              Facilitate team software development and setup and integrate
         and Control Software                              software change management and rule management tools.
                                    Blaze Advisor
         Changes




3
 Informatica is an enterprisewide tool used by the IRS for extracting data from existing systems and loading into
new repositories.
                                                                                                               Page 7
                     Improvements Are Needed to Ensure Successful Development
                        and System Integration for the Return Review Program




      Prototyping Task                Products                          Task Description

 5.   Develop End-to-End       Informatica         Develop an end-to-end prototype application that flows from
      Application Flow                             the Enterprise Informatica Platform to the RRP database, then
                               Java
                                                   to batch processing that executes Java code business rules and
                               Springbatch         predictive models and saves those screening results to the RRP
                                                   database, and then to the desktop where users can query the
                               Blaze Advisor SAS   results.
                               Greenplum
                               Business Objects
 6.   Execute SAS As           SAS                 Publish and execute predictive models using SAS in-database
      In-Database Analytics                        screening. Assess system performance.
                               Greenplum
      Against the RRP
      Database
 7.   Assess                   Informatica         Assess the performance of the end-to-end application.
      Day-in-a-Day
                               Java
      Performance
                               Springbatch
                               Blaze Advisor
                               SAS
                               Greenplum
                               Business Objects
 8.   Use SAS Social Network   SAS                 Explore the usage of SAS social network analysis in linked
      Analysis                                     return analysis. Assess system performance.
 9.   Integrate Rule           Blaze Advisor       Develop rule management application and deploy web
      Management                                   application.
      Application With Web
      Application
 10. Integrate Desktop         Business Objects    Develop prototype reports and ad hoc queries.
     Reporting With the RRP
                               Greenplum
     Database
Source: RRP TS1 MS4A Prototyping Approach and Strategy.

The purpose of the RRP Prototype Management Plans is to manage the development, execution,
and evaluation of these 10 RRP prototype projects. However, only draft versions of the RRP
Prototype Management Plans were completed as of July 2012. Major RRP stakeholders did not
approve these critical systems development life cycle documents before significant resources
were committed to the RRP prototype activities.




                                                                                                     Page 8
                Improvements Are Needed to Ensure Successful Development
                   and System Integration for the Return Review Program



Further, our review of the Draft RRP Prototype Management Plans found that the plans did not:
      Include criteria for measuring the success of the RRP prototypes.
      Map prototype activities back to RRP TS1 functional and performance requirements.
      Consider or incorporate lessons learned during other prototypes, such as:
       o Each prototype team must define the detailed expected outcome of the prototype.
       o Prototype teams need a technical lead assigned to the team.
       o The technical lead needs to have a strong technical applications development
         background and skills relevant to the platform and products being prototyped.
       o The prototype time period should allow for analysis and design.
Senior Applications Development organization project management personnel review and
approve key deliverable documents, like the RRP Prototype Management Plans. The lack of
complete and approved RRP Prototype Management Plans could contribute to inefficiencies in
the RRP systems development process, increase project risks and cost overruns, and introduce
schedule delays.
During our review, we also considered results from a March 2012 internal evaluation of the
Applications Development organization’s systems development processes. This internal
evaluation concluded that a weakness existed in the Applications Development organization’s
project planning activities. More specifically, the evaluation team concluded that it was not
evident that all projects were conducting sufficient planning activities by including
project planning activities in their project schedules and holding project-planning meetings.

Recommendation
Recommendation 3: The CTO should ensure that RRP Prototype Management Plans:
      Clarify how to measure the success of the RRP TS1 prototypes.
      Map back to and address key RRP TS1 functional and performance requirements.
      Incorporate IRS prototype lessons learned.
      Are properly approved by RRP stakeholders.
       Management’s Response: The IRS agreed with this recommendation. RRP TS1
       prototype success criteria and measures are outlined in TS1 Architecture Prototype
       reports and other documentation on the RRP SharePoint site. The RRP TS1 Milestone 4a
       Prototyping Approach and Strategy document describes the tasks to achieve the expected
       prototype results and performance goals. The strategy document outlines how the

                                                                                         Page 9
                Improvements Are Needed to Ensure Successful Development
                   and System Integration for the Return Review Program



       RRP TS1 architecture and preliminary design, combined with the prototype using the
       new technology stack, will meet the RRP TS 1 functional requirements and performance
       requirements. By April 26, 2013, technical documentation, including the Prototype
       Management Plan, was provided to RRP stakeholders and management for review and
       concurrence. Prototype development status and results were communicated to project
       stakeholders.

Uncertainty About the Systems Development Path for the Return
Review Program and the Absence of Enterprise Life Cycle Guidance
for Prototypes Hindered Initial Systems Development Efforts
The IRS applies its Enterprise Life Cycle (ELC) framework to manage and implement business
change through information systems initiatives. The ELC provides the direction, processes,
tools, and assets necessary to accomplish business change through software development in a
consistent and repeatable manner. The objectives of the ELC process are to:
      Enhance chances for successfully achieving the desired business change.
      Standardize the approach for managing and governing business change and supporting
       information system projects throughout the IRS.
      Help ensure project success by reducing risk and ensuring compliance with applicable
       internal and external standards.
To achieve these objectives, the ELC supports multiple software development approaches called
paths. A path is a unique technical or systems engineering approach to accomplish new systems
development. The ELC recognizes five paths for new development projects, covering all phases
of development from project initiation through system deployment. Projects are required to
select one or more paths that provide the best fit for their project solution. The ELC paths
include Waterfall, Commercial Off-the-Shelf, Iterative, Joint Application Design, or Rapid
Application Development, and Maintenance.
The Waterfall path requires sequential development of a solution with required reviews and
formal approvals before continuing work. These reviews occur within each of the six ELC
phases, and approvals must occur at the end of each phase in order to allow project work to
continue in the subsequent phase. The following are characteristics of a Waterfall development
path approach: sequential development, evolving teams, formal documentation, and formal
approvals. The Iterative path is an adaptive development approach in which projects start with
initial planning and end with deployment, with repeated cycles of requirement discovery,
development, and testing in between. Iterative development path is fundamentally different from
sequential development path approaches, such as Waterfall.



                                                                                       Page 10
                Improvements Are Needed to Ensure Successful Development
                   and System Integration for the Return Review Program



Based on our review of RRP project documents and discussions with Applications Development
organization personnel, the RRP project is using the Waterfall development path. However, the
Criminal Investigation Executive Steering Committee approved the RRP project to use an
Iterative development path methodology. The chronological list of events are:
      In October 2010, the ELC Coach advised the Applications Development organization
       against following an Iterative development path because the RRP did not meet the
       necessary requirements for following an Iterative development path.
      In November 2010, the RRP project team requested and the Criminal Investigation
       Executive Steering Committee approved the RRP to use an Iterative development path.
      In May 2011, the Criminal Investigation Executive Steering Committee approved for the
       RRP project to combine Milestones 3 (Preliminary Design), 4a (Detailed Design), and 4b
       (Development), which the ELC describes as typical of an Iterative development path.
      In June 2011, the RRP TS1 Project Tailoring Plan indicated that the RRP project was
       following the Waterfall development path.
      In February 2012, the Applications Development organization indicated that the RRP
       project was following the Waterfall development path.
      In March 2012, the RRP TS1 Project Plan indicated that the RRP project was following
       the Waterfall development path.
This chronology of events indicates uncertainty between the Applications Development
organization’s RRP project team and its governance body regarding which development path the
RRP project is using and which systems development deliverable documents the RRP project
can be held accountable to produce. Project management risks exist that the RRP project team is
not using the development path that the Criminal Investigation Executive Steering Committee
intended. Further, the RRP project team may not be using the development path that the
Applications Development organization identified as best suited for the RRP system.
Our review also noted that while the IRS ELC describes the Waterfall development path, there is
no ELC guidance for prototyping technology products during systems development following
the Waterfall development path. Absent prototyping guidance, there is limited assurance that
RRP prototyping activities were carried out in accordance with management’s intentions. Based
on our review of the RRP systems development, we believe that guidance regarding prototyping
products planned and completed within the Waterfall development path is needed to address
risks areas including:
      Complying with Enterprise Architecture processes for adding technology product
       solutions to the IRS’s information technology environment.
      Leasing versus purchasing hardware.

                                                                                        Page 11
                    Improvements Are Needed to Ensure Successful Development
                       and System Integration for the Return Review Program



       Licensing software or requesting evaluation copies of software.
       Acquiring and disposing of prototype assets, for both success and failure conditions.

Recommendations
Recommendation 4: The CTO should document for approval by established RRP
governance bodies the decided RRP systems development path.
        Management’s Response: The IRS agreed with this recommendation. RRP will
        request formal approval and decision documentation to follow the Waterfall systems
        development path from the newly established governance body, the Revenue Protection
        Technology Executive Steering Committee, based on the previous approval obtained
        from the Criminal Investigation Executive Steering Committee.
Recommendation 5: The CTO should ensure that the IRS IT organization establishes
sufficient ELC guidance for managing prototype efforts during systems development.
        Management’s Response: The IRS agreed with this recommendation. The ELC
        office will update Internal Revenue Manual 2.16.1 to incorporate additional guidance for
        prototype, pilot, and proof-of-concept efforts. The guidance will be captured in one
        particular section within the Internal Revenue Manual instead of multiple sections.

Alternative Commercial Software Products Were Not Fully Considered
Prior to Selecting Technology Product Solutions for the Return
Review Program
The IRS IT Enterprise Architecture organization maintains an approved software products list
referred to as the Enterprise Standards Profile.4 The Enterprise Architecture organization’s
change request process is intended to ensure that the IRS IT Enterprise Architecture organization
reviews and approves all new technology products added to the IRS computing environment.
Adding a product to the Enterprise Standards Profile requires the Applications Development
organization to complete a change request, including alternative product analyses and impact
assessments. We reviewed five change requests related to the RRP system and identified the
following inconsistencies in two of the five change requests:
       One change request did not include an alternative analysis (Java).
       One change request was missing an impact assessment, although the change request
        stated that the change affected an organization (Red Hat Linux).


4
 Internal Revenue Manual 2.15.1.3.5.1 (Aug. 1, 2003) pertains to the Enterprise Standards Profile and identifies
approved products and guidelines applicable to the IRS’s target architecture.
                                                                                                           Page 12
                Improvements Are Needed to Ensure Successful Development
                   and System Integration for the Return Review Program



      The Enterprise Architecture organization did not require an alternative analysis or impact
       assessment for a later version of a product that was already on the Enterprise Standards
       Profile (Red Hat Linux).
Figure 3 lists the hardware and software products approved by the CTO in August 2011 for the
RRP TS1–TS4. It also shows the Enterprise Architecture organization’s approval status of the
respective products.
    Figure 3: RRP Technology Hardware/Software Products Being Prototyped

                                                                     Enterprise
   Product                                                           Standards
   Function            Type                   Product               Profile Status      Developer

 Server        x86 Servers          Hewlett-Packard ProLiant      Approved           Hewlett-Packard
 Hardware
 Operating     Linux                Red Hat                       Approved           Red Hat
 System                             Enterprise Linux                                 Corporation

 Database      Massively Parallel   Greenplum                     Approved           EMC Corporation
               Processing
 Program       Java Virtual         Java                          Approved           Oracle
 Language      Machine                                                               Corporation

 Data Mining   Predictive           SAS Fraud Framework (SAS      In Process         SAS Institute
 Tools         Modeling and         Enterprise CASE Management
               Linked Return        SAS Enterprise Guide
               Analysis
                                    SAS Enterprise Miner
                                    SAS Grid Manager
                                    SAS Forecast Server
                                    SAS Enterprise Business
                                    Intelligence Server
                                    SAS Social Network Analysis
                                    SAS Model Manager
                                    SAS Text Miner
                                    Scoring Accelerator for
                                    Greenplum Access to Oracle)
 Java          Java 2 Platform      JavaBeans Open Source         Approved           Red Hat
 Application   Enterprise Edition   Software Application Server                      Corporation
 Server                             and Development
                                    Environment




                                                                                            Page 13
                   Improvements Are Needed to Ensure Successful Development
                      and System Integration for the Return Review Program




                                                                            Enterprise
   Product                                                                  Standards
   Function              Type                     Product                  Profile Status           Developer

 Batch            Spring Batch          Spring Framework (Spring         The Cybersecurity      EMC Corporation
 Processing                             Batch Component) adds            organization
                                        utilities to JavaBeans Open      disapproved the
                                        Source Software                  change request;
                                                                         however, the Change
                                                                         Control Board
                                                                         accepted the security
                                                                         risks and approved the
                                                                         request.
 Business         Business Rules        Fair Isaac Corporation Blaze     Approved                Fair Isaac
 Rules            Management            Advisor Builder                                          Corporation
                  System for            Decision Simulator
                  Predictive
                  Analytics
 Extract,         The Enterprise        Enterprise Informatica           Approved                Informatica
 Transform,       Informatica           Platform                                                 Corporation
 and Load         Platform is a tool
                  to extract,
                  transform, and load
                  data from existing
                  data sources to
                  application
                  databases
 Reports          Web-enabled ad        Business Objects                 Approved                System Analysis
                  hoc query and data                                                             and Program
                  reporting tool                                                                 Development
Source: Obtained from the IRS Enterprise Architecture organization’s Enterprise Standards Profile database as of
May 2012.

Again, we considered the Applications Development organization’s March 2012 internal
evaluation of its systems development processes. The evaluation team concluded that a
weakness existed in the Applications Development organization’s processes for evaluating
alternative products. More specifically, the evaluation team concluded that it was not clear when
alternative analyses were required and how the Applications Development organization should
conduct the analyses. If alternative products are not fully considered as required with complete
alternative analyses and impact assessments, the IRS risks buying software and building systems
that are duplicative, incompatible, insecure, and unnecessarily costly to integrate and maintain.




                                                                                                        Page 14
                Improvements Are Needed to Ensure Successful Development
                   and System Integration for the Return Review Program



Recommendations

Recommendation 6: The CTO should take appropriate steps to:
      Ensure that the RRP project team complies with existing guidance that requires change
       requests to include alternative analyses.
      Ensure that the RRP project team complies with existing guidance that requires change
       requests to include an impact assessment.
      Establish and implement Enterprise Architecture guidelines for evaluating later versions
       of tested commercial products included in the Enterprise Standards Profile.
       Management’s Response: The IRS agreed with this recommendation. The
       Enterprise Architecture organization’s Standards and Technology Management Team
       will develop a Data Item Description template for analyzing and processing Enterprise
       Architecture Change Requests in a standard, repeatable process. In accordance with the
       process, the Standards and Technology Management Team will evaluate all requests to
       add or update products in the Enterprise Standards Profile.




                                                                                        Page 15
                Improvements Are Needed to Ensure Successful Development
                   and System Integration for the Return Review Program



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology
Our overall objective was to determine whether the IRS’s IT Applications Development
organization was adequately managing the RRP TS1 systems development risks to achieve stated
business and information technology requirements. To accomplish our objective, we:
I.     Considered status of key milestones, criteria, and guidance relevant to the RRP TS1
       systems development effort.
II.    Evaluated how the Applications Development organization managed RRP project
       management risks to achieve stated business and information technology requirements.
       A. Systems Development Methodology. We asked what systems development
          methodology the Applications Development organization was using.
       B. Governance. We evaluated if the IRS IT organization had implemented sufficient
          program-level governance for the RRP.
       C. Alternative Solutions. We assessed how the Applications Development organization
          considered alternative technology product solutions for the design of RRP TS1.
III.   Determined if the Applications Development organization was adequately managing
       RRP TS1 prototype risks to achieve stated business and information technology
       requirements.
       A. Internal Revenue Manual Policy and Applicable Guidance. We assessed the
          adequacy of existing IRS IT organization guidance regarding initiating and managing
          prototype projects.
       B. Prototype Plan. We assessed if the Applications Development organization had
          completed the RRP Prototype Management Plans and obtained proper management
          approval.
       C. Enterprise Architecture. We reviewed the IRS IT organization’s process for updating
          the existing enterprise architecture for new systems development technology
          products. We assessed if the Applications Development organization had followed
          stated processes for the RRP.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems

                                                                                        Page 16
                Improvements Are Needed to Ensure Successful Development
                   and System Integration for the Return Review Program



for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the ELC and related IRS information
technology guidelines and the processes followed in the development of information technology
projects. We evaluated these controls by reviewing the guidelines, conducting interviews and
meetings with management and staff, and reviewing project documents.




                                                                                      Page 17
                Improvements Are Needed to Ensure Successful Development
                   and System Integration for the Return Review Program



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Gwendolyn McGowan, Director, Systems Modernization and Applications Development
Carol Taylor, Audit Manager
Charlene Elliston, Lead Auditor
Andrea Barnes, Senior Auditor
Cari Fogle, Senior Auditor
Sylvia Sloan-Copeland, Senior Auditor
Robert Carpenter, Senior Information Technology Specialist




                                                                                     Page 18
               Improvements Are Needed to Ensure Successful Development
                  and System Integration for the Return Review Program



                                                                        Appendix III

                        Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner for Operations Support OS
Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer for Operations OS:CTO
Director, Privacy, Governmental Liaison and Disclosure OS:P
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Director, Business Performance Solution, Wage and Investment Division SE:W:BMO:BPS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                               Page 19
                Improvements Are Needed to Ensure Successful Development
                   and System Integration for the Return Review Program



                                                                               Appendix IV

   Timeline – Return Review Program Project Events

This appendix provides a detailed timeline for specific RRP system events and milestones that
were considered during this review.




                                                                                        Page 20
                   Improvements Are Needed to Ensure Successful Development
                      and System Integration for the Return Review Program




                                                                                   Appendix V

                                 Glossary of Terms

Term                Definition

Alternative         Process of assessing different products.
Product
Analyses

Business Case       Required by Office of Management and Budget Circular A-11 (Preparation,
                    Execution, and Submission of the Budget, dated June 2005) and commonly
                    called Exhibit 300, Capital Asset Plan and Business Case. Each agency must
                    submit a Business Case twice a year for each major information technology
                    investment.

Change Request      The form for requesting approval to change a baselined product or other
                    controlled item.

Cost-Plus-          A type of cost-plus contract in which the fee is based on either cost savings
Incentive-Fee       or performance. It varies according to the level the contractor achieves in
                    meeting such cost or performance criteria.

Electronic Fraud    The primary information system used to support the IRS Criminal
Detection           Investigation’s Questionable Refund Program, which is a nationwide
System              program established to detect and stop fraudulent and fictitious claims for
                    refunds on income tax returns.

Enterprise          A unifying design or structure for an enterprise that includes business and
Architecture        organizational aspects of the enterprise as well as technology aspects.
                    Enterprise Architecture divides the enterprise into its component parts and
                    relationships and provides the principles, constraints, and standards to help
                    align business area development efforts. An Enterprise Architecture ensures
                    that subordinate architectures and business system components developed
                    within particular business areas and multiple projects fit together into a
                    consistent, integrated whole.



                                                                                           Page 21
                  Improvements Are Needed to Ensure Successful Development
                     and System Integration for the Return Review Program




Term               Definition

Enterprise Life    A structured business systems development methodology that requires the
Cycle              preparation of specific work products during different phases of the
                   development process.

Executive          A committee that oversees investments, including validating major
Steering           investment business requirements and ensuring that enabling technologies are
Committee          defined, developed, and implemented.

Fiscal Year        A 12-consecutive-month period ending on the last day of any month.
                   The Federal Government’s fiscal year begins on October 1 and ends on
                   September 30.

Impact             A process aimed at structuring and supporting the development of policies.
Assessment         It identifies and assesses the problem at stake and the objectives pursued.

Java               A set of several computer software products and specifications from
                   Sun Microsystems (which has since merged with Oracle Corporation) that
                   together provide a system for developing application software and deploying
                   it in a cross-platform computing environment.

Master File        The IRS database that stores various types of taxpayer account information.
                   This database includes individual, business, and employee plans and exempt
                   organizations data.

Milestone          Scheduled time for providing a “go/no-go” decision point in a program or
                   project.
Red Hat            A Linux-based operating system developed by Red Hat and targeted toward
Enterprise         the commercial market. Red Hat Enterprise Linux is released in server
Linux              versions for x86, x86-64, Itanium, PowerPC and IBM System z, and desktop
                   versions for x86 and x86-64.

Stakeholders       An individual or organization that is materially affected by the outcome of
                   the system. Examples of project stakeholders include the customer, the user
                   group, the project manager, the development team, and the testers.




                                                                                        Page 22
    Improvements Are Needed to Ensure Successful Development
       and System Integration for the Return Review Program



                                                 Appendix VI

Management’s Response to the Draft Report




                                                        Page 23
Improvements Are Needed to Ensure Successful Development
   and System Integration for the Return Review Program




                                                    Page 24
Improvements Are Needed to Ensure Successful Development
   and System Integration for the Return Review Program




                                                    Page 25
Improvements Are Needed to Ensure Successful Development
   and System Integration for the Return Review Program




                                                    Page 26
Improvements Are Needed to Ensure Successful Development
   and System Integration for the Return Review Program




                                                    Page 27
